No. 19-511

In the
Supreme Court of the United States
___________________
FACEBOOK, INC.,
Petitioner,
v.
NOAH DUGUID, individually and on behalf of
himself and all others similarly situated,
Respondent,
and
UNITED STATES OF AMERICA,
Respondent-Intervenor.
________________________
MOTION FOR DIVIDED ARGUMENT
________________________
Pursuant to Rule 28.4 of the Rules of this Court, petitioner Facebook, Inc.
moves to divide the oral argument for petitioner in the above case. This Court set the
case for one hour of oral argument on Tuesday, December 8, 2020. Facebook moves
to allocate 15 minutes of petitioner’s oral argument time, including rebuttal, to
Facebook and 15 minutes of petitioner’s time to the United States of America as
respondent supporting petitioner. Counsel for the United States has authorized us
to state that the Solicitor General agrees with that allocation and therefore supports
this motion. Granting this motion would not require the Court to enlarge the overall
time for argument.

1. The Telephone Consumer Protection Act of 1991 (TCPA) broadly prohibits
virtually all unsolicited calls made using “an artificial or prerecorded voice” (i.e.,
robocalls), and also imposes limited restrictions on a specific type of telephone
equipment prevalent at the time of its enactment: an “automatic telephone dialing
system,” or ATDS. The TCPA’s private right of action permits anyone who suffers a
violation of the TCPA’s restrictions to recover the greater of his actual damages or
$500 per call in statutory damages, with treble damages available if the violation was
committed “willfully or knowingly.” 47 U.S.C. §227(b)(3)(B)-(C).
2. The private-party respondent, Noah Duguid, filed a putative class action
alleging that Facebook violated the TCPA’s prohibitions on making calls using an
ATDS by sending Duguid login-notification text messages regarding attempts to
access a Facebook account associated with Duguid’s cellular telephone number.
Facebook raised both statutory and constitutional defenses, and the United States
intervened to defend the constitutionality of the TCPA. As relevant to this case, the
court of appeals held that an ATDS need not use a random- or sequential-number
generator; instead, it interpreted the definition of ATDS to include any device that
has the capacity to store numbers to be called and to dial such numbers
automatically, which would include virtually every cellular phone.
3. After addressing the constitutionality of the TCPA’s exception for
government-debt-collection efforts in Barr v. American Association of Political
Consultants, 140 S. Ct. 2335 (2020), this Court granted certiorari in this case on the
question of whether the TCPA’s definition of ATDS encompasses any device that can

2

“store” and “automatically dial” telephone numbers, even if the device does not “us[e]
a random or sequential number generator.” Although the United States initially
intervened in the courts below to defend the constitutionality of the TCPA’s
government-debt-collection exception, it remains a party to the case and has
addressed the statutory question in a merits brief filed in support of petitioner.
Facebook believes that dividing the argument time for petitioner between Facebook
and the United States would be of material assistance to the Court. Petitioner
Facebook obviously has a significant interest in this case both because the Court
granted Facebook’s petition for certiorari and because Facebook was haled into court
and threatened with liability under the TCPA for its targeted privacy- and securityenhancing login-notification messages. The United States has a significant interest
in and perspective on the question presented because the case concerns the scope and
administration of a key term in a federal statute administered by several federal
agencies.
For the foregoing reasons, petitioner requests that the Court grant the motion
for divided argument.

3

Respectfully submitted,

ANDREW B. CLUBOK
ROMAN MARTINEZ
SUSAN E. ENGEL
SAMIR DEGER-SEN
GREGORY B. IN DEN BERKEN
LATHAM & WATKINS
555 Eleventh St., NW
Suite 1000
Washington, DC 20004

October 23, 2020

PAUL D. CLEMENT

Counsel of Record

ERIN E. MURPHY
DEVIN S. ANDERSON
KASDIN M. MITCHELL
LAUREN N. BEEBE
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioner

4

